No. 20A84
IN THE SUPREME COURT OF THE UNITED STATES
______________

REPUBLICAN PARTY OF PENNSYLVANIA,
Petitioner,
v.
KATHY BOOCKVAR, SECRETARY OF THE COMMONWEALTH OF
PENNSYLVANIA, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Supreme Court Bar and
that, on this 6th day of November, 2020, I caused copies of the OPPOSITION OF THE
PENNSYLVANIA DEMOCRATIC PARTY RESPONDENTS TO EMERGENCY
APPLICATION FOR INJUNCTION PENDING CERTIORARI REVIEW to be served
by USPS first class mail and electronic mail to all parties listed below.
Respectfully submitted,

Arn Jacobsen

Service List
John Matthew Gore
JONES DAY
51 Louisiana Avenue, NW
Washington, DC 20001
(202) 879-3930
jmgore@jonesday.com

Jay Alan Sekulow
CONSTITUTIONAL LITIGATION AND
ADVOCACY GROUP, P.C.
1701 Pennsylvania Ave. NW, Suite 200
Washington, DC 20006
(202) 546-8890
jsekulow@claglaw.com

Counsel for Petitioner Republican Party of
Counsel for Donald J. Trump for President,
Pennsylvania
Inc.
J. Bart DeLone
Richard P. Limburg
PENNSYLVANIA OFFICE OF ATTORNEY OBERMAYER REBMANN MAXWELL &
GENERAL
HIPPEL LLP
1500 Market Street, Suite 3400
Strawberry Square
320 Market Street, 15th Floor
Philadelphia, PA 19102
Harrisburg, PA 17120
(215) 665-3000
(717) 783-3226
richard.limburg@obermayer.com
jdelone@attorneygeneral.gov
Counsel for Respondent Secretary of State Counsel for Respondents Sen. Joseph Scarnati
Boockvar
and Sen. Jake Corman
Jason Brett Torchinsky
Raymond Edward Ginn, Jr.
HOLTZMAN VOGEL JOSEFIAK TOR- GINN & VICKERY PC
CHINSKY PLLC
99 Main Street
15405 John Marshall Highway
Wellsboro, PA 16901
Haymarket, VA 20169
(570) 724-6600
(540) 341-8808
reg@gv-law.com
Jtorchinsky@hvjt.law
Respondent Tioga County Board of Elections
Counsel for Petitioners Joseph B. Scarnati, III,
et al.

Zachary M. Wallen
CHALMERS & ADAMS LLC
301 South Hills Village Drive
Suite LL200-420
Pittsburgh, PA 15102
(412) 200-0842
zwallen@cpblawgroup.com

Krista-Ann M. Staley
BABST CALLAND
Two Gateway Center
603 Stanwix Street, 6th Floor
Pittsburgh, PA 15222
(412) 394-5400
kstaley@babstcalland.com

Counsel for Respondents Speaker Bryan Cut- Counsel for Respondents Boards of Elections
of Armstrong, Bedford, Blair, Centre, Columler and Rep. Kerry Benninghoff
bia, Dauphin, Fayette, Huntingdon, Indiana,
Lackawanna, Lawrence, Lebanon, Montour,
Northumberland, Venango, and York Counties
Frank J. Lavery, Jr.
LAVERY LAW
225 Market Street, Suite 304
Harrisburg, PA 17108-1245
(717) 233-6633
flavery@laverylaw.com

Joseph M. Cosgrove
SELINGO GUAGLIARDO LLC
345 Market Street
Kingston, PA 18704
(570) 287-3400
jcosgrove@getyourselfagoodlawyer.com

Counsel for Respondents Boards of Elections Counsel for Respondent Luzerne County
of Franklin and Perry Counties
Board of Elections
Christopher P. Gabriel
535 Smithfield Street, Suite 700
Pittsburgh, PA 15222-2310
(412) 395-1275
cgabriel@cfwws.com

David Allen Regoli
333 Freeport Street. Suite 201
New Kensington, PA 15068
(724) 335-0500
regoli@regolilaw.com

Counsel for Respondents Boards of Elections Counsel for Respondent Westmoreland County
of Clarion and Tioga Counties
Board of Elections

Robert Grimm
SWARTZ CAMPBELL
600 Grant Street, Suite 4750
Pittsburgh, PA 15219
(412) 232-9800
rgrimm@swartzcampbell.com

Michele D. Hangley
HANGLEY ARONCHICK SEGAL PUDLIN
& SCHILLER
One Logan Square, 27th Floor
Philadelphia, PA 19103
(215) 496-7061
mhangley@hangley.com

Counsel for Respondent Washington County Counsel for Respondent Boards of Elections of
Board of Elections
Bucks, Chester, Montgomery, and Philadelphia Counties
Allan Joseph Opsitnick
OPSITNICK & ASSOCIATES
564 Forbes Avenue #1301
Pittsburgh, PA 15219
(412) 391-3299
aopsitnick@opsitnickslaw.com

Brian J. Taylor
KING, SPRY, HERMAN, FREUND & FAUL
One West Broad St., Ste. 700
Bethlehem, PA 18018
(610) 332-0390
btaylor@kingspry.com

Counsel for Respondent Northampton County
Counsel for Respondent Allegheny County Board of Elections
Board of Elections
Carl John Zwick
ZWICK LAW
171 Beaver Drive
PO Box 1127
Dubois, PA 15801
(814) 371-6400
cjz@zwick-law.com

Christina Lee Hausner
150 N. Queen Street, Suite 714
Lancaster, PA 17603
(717) 735-1584
chausner@co.lancaster.pa.us

Counsel for Respondent Jefferson County Counsel for Respondent Lancaster County
Board of Elections
Board of Elections

Edward David Rogers
BALLARD SPAHR LLP
1735 Market Street, 51st Floor
Philadelphia, PA 19103
(215) 864-8144
rogerse@ballardspahr.com

Gerard J. Geiger
NEWMAN WILLIAMS, P.C.
712 Monroe Street
Stroudsburg, PA 18360
(570) 421-9090
ggeiger@newmanwilliams.com

Counsel for Respondent Delaware County Counsel for Respondents Boards of Elections
Board of Elections
of Carbon, Monroe, Pike, Snyder, and Wayne
Counties
H. William White III
124 West Diamond St
Butler, PA 16003
(724) 284-5100
wwhite@co.butler.pa.us

Jonathan Lee DeWald
433 Market Street
Williamsport, PA 17701
(570) 326-6555
jdewald@mpvhlaw.com

Counsel for Respondent Butler County Board Counsel for Respondent Union County Board
of Elections
of Elections
Larry E. Coploff
PO Box 389
Lock Haven, PA 17745
(570) 748-7771
lec@crwlaw.net

Molly Ruth Mudd
111 Baltimore Street
Gettysburg, PA 17325
(717) 337-5911
mmudd@adamscounty.us

Counsel for Respondent Clinton County Board Counsel for Respondent Adams County Board
of Elections
of Elections
Nathan W. Karn
401-03 Allegheny Street
PO Box 415
Hollidaysburg, PA 16648
(814) 695-7581
nkarn@eveyblack.com

Robert D. Schaub
ROSENN JENKINS & GREENWALD LLP
15 South Franklin Street
Wilkes-Barre, PA 18612
(570) 826-5652
rschaub@rjglaw.com

Counsel for Respondent Blair County Board of Counsel for Respondent Susquehanna County
Elections
Board of Elections

Robert Eugene Grimm
2698 Morgantown Road
Smithfield, PA 15478
(724) 569-2819
lawyergrimm@hotmail.com

Thomas M. Caffrey
P.O. Box A
Coplay, PA 18037-0200
(610) 434-4418
tcaffrey@rcn.com

Counsel for Respondent Greene County Board Counsel for Respondent Lehigh County Board
of Elections
of Elections
Thomas George Wagner
MEYER WAGNER BRAUN & KRAUS
115 Lafayette Street
Saint Marys, PA 15857
(814) 781-3445
twagner@mwbklaw.com

Thomas R. Shaffer
GLASSMIRE & SHAFFER LAW
5 East Third Street
Coudersport, PA 16915
(814) 274-7292
tomshaffer@verizon.net

Counsel for Respondent Elk County Board of Counsel for Respondent Potter County Board
Elections
of Elections
Thomas S. Talarico
TALARICO & ASSOCIATES
510 Cranberry Street, Suite 301
Erie, PA 16507
(814) 459-4472
ttalarico@nwpalawyers.com

William Gleason Barbin
206 Main Street
Johnstown, PA 15901
(814) 535-5561
britanderson2002@yahoo.com

Counsel for Respondent Erie County Board of Counsel for Respondent Cambria County
Elections
Board of Elections
William J. Madden
165 Euclid Avenue
Sharon, PA 16146
(724) 342-1300
wjmpc@verizon.net

Christine D. Steere
DEASEY, MAHONEY & VALENTINI,
LTD.
103 Chesley Drive, Suite 101
Media, PA 19063
(610) 892-2732
csteere@dmvlawfirm.com

Counsel for Respondent Mercer County Board Counsel for Respondent Berks County Board
of Elections
of Elections
Wyoming County Board of Elections
1 Courthouse Square
Tunkhannock, PA 18657

Clearfield County Board of Elections
212 East Locust Street
Clearfield, PA 16830

Respondent Wyoming County Board of Elec- Respondent Clearfield County Board of Elections
tions

Bureau of Elections
Beaver County Courthouse
810 Third Street
Beaver, PA 15009

Bradford County Board of Elections
Bradford County Courthouse Annex
6 Court Street, Suite 2
Towanda PA 18848

Respondent Beaver County Board of Elections Respondent Bradford County Board of Elections
Cameron County Board of Elections
Stephen Snook
Cameron County Courthouse
BMZ Law, PC
20 E. 5th Street
225 Market Street, Suite 304
Emporium, PA 15834
Harrisburg, PA 17108-1245
(717) 233-6633
Respondent Cameron County Board of Elec- info@bmzlaw.com
tions
Counsel for Respondent Mifflin County Board
of Elections

